                             UNITED STATES
                     NUCLEAR REGULATORY COMMISSION
                             WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          November 17, 2009



MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: AUDIT OF NRC’S
                           MANAGEMENT DIRECTIVE 6.8, LESSONS
                           LEARNED PROGRAM (OIG-10-A-03)


The Office of the Inspector General (OIG) conducted an audit of the Nuclear
Regulatory Commission’s (NRC) Management Directive (MD) 6.8, Lessons
Learned Program. The audit was initiated based on concerns identified during
OIG’s Audit of NRC’s Oversight of Construction at Nuclear Facilities. OIG’s audit
of MD 6.8 identified issues pertaining to the agencywide Lessons Learned
Program (the program) that warrant your attention. Specifically,

             The program could have been more effectively communicated to
              NRC staff.

             Management’s attention to and support for certain aspects of the
              program has diminished over time.

As a result, the program is missing opportunities to identify and inform NRC staff
of significant agencywide lessons learned that would improve agency operations.
                                  Audit of NRC’s Management Directive 6.8, Lessons Learned Program



BACKGROUND

In 2002, NRC created the Davis-Besse Lessons Learned Task Force to evaluate
the agency’s regulatory processes used during the Davis-Besse event.1 The
Davis-Besse Lessons Learned Task Force recommended, among other things,
that NRC conduct an effectiveness review of the actions taken in response to
past lessons learned reviews. Consequently, the Office of Nuclear Reactor
Regulation (NRR) established the Effectiveness Review Lessons Learned Task
Force (ERLLTF). This task force found that some corrective actions
implemented prior to the Davis-Besse event had not been effective. In response,
the Executive Director for Operations assigned the ERLLTF to establish a
program to institutionalize significant agencywide lessons learned.

On August 1, 2006, the agency issued MD 6.8 to establish the formal and
structured process needed to manage corrective actions for significant
agencywide lessons learned. The Executive Director for Operations has primary
oversight of the program, but has delegated this responsibility to a Lessons
Learned Program Manager (the program manager) and a Lessons Learned
Oversight Board (the Oversight Board). The Oversight Board is composed of
deputy office directors from NRR, the Office of New Reactors, the Office of
Nuclear Material Safety and Safeguards, the Office of Federal and State
Materials and Environmental Management Programs, the Office of Nuclear
Regulatory Research (RES), the Office of Nuclear Security and Incident
Response, and a representative from one of the four NRC regions. The
Executive Director for Operations transferred primary oversight of the program to
RES on May 26, 2009. The current program manager and Chairman of the
Oversight Board are both RES employees.

MD 6.8 establishes the process for screening, evaluating, and implementing
potential agencywide lessons learned. The program manager is responsible for
compiling potential lessons learned issues. The program manager then
schedules an Oversight Board meeting to discuss whether the selected issues
should be considered as agencywide lessons learned. The Oversight Board
compares the issues to threshold criteria established in MD 6.8, and only if the
criteria are met can an issue be considered an agencywide lessons learned.
Issues that do not meet the lessons learned criteria established in MD 6.8 may
be addressed by NRC offices through other corrective action mechanisms. The
program manager posts the Oversight Board meeting minutes and annual
program updates in the Agencywide Document Access and Management
System.



1
  In March 2002, plant workers at the Davis-Besse Nuclear Power Station found significant
damage to a reactor vessel while conducting a routine repair. This problem led to a leakage of
reactor cooling water, which contains boric acid and can damage other areas of the nuclear
reactor.


                                               2
                             Audit of NRC’s Management Directive 6.8, Lessons Learned Program



The Executive Director for Operations assigns a lead NRC office to create and
implement a corrective action plan when a lesson learned is identified. Once the
lead office implements the corrective action plan, the Oversight Board
determines if that plan was satisfied. Upon successful completion of the
corrective action plan, the Oversight Board determines when the lead office
conducts an effectiveness review. When completed, the Oversight Board
reviews and makes recommendations if necessary.


PURPOSE

The objective of this audit was to determine whether NRC's agencywide Lessons
Learned Program meets its intended purpose to ensure that knowledge gained
from significant lessons learned is retained and disseminated in a manner that
will maximize its benefit and usefulness to the staff.


RESULTS

Although NRC has identified significant agencywide lessons learned, agency
staff are generally unaware of the program’s lessons and activities. The purpose
of the program is to ensure that knowledge gained from significant lessons
learned is retained and disseminated in a manner which maximizes its benefit
and usefulness to staff. However, the program could have been more effectively
communicated to staff, and management’s attention to and support for certain
aspects of the program has diminished over time. As a result, the program is
missing opportunities to identify and inform NRC staff of significant agencywide
lessons learned that would improve agency operations.

Purpose of the Lessons Learned Program

MD 6.8 establishes the formal and structured process needed to manage the
Lessons Learned Program. The purpose of the program is to ensure that:

             Knowledge gained from significant lessons learned is retained and
              disseminated.

             Knowledge is beneficial and useful to agency staff.

             Major organizational problems identified by lessons learned will not
              recur.




                                          3
                                   Audit of NRC’s Management Directive 6.8, Lessons Learned Program



NRC Staff Generally Unaware of the Program

Although the Oversight Board has identified significant lessons learned, agency
staff are generally unaware of the program’s lessons and activities. Specifically,
staff are unaware of the issues considered for potential agencywide lessons
learned, the lessons learned identified, and who has oversight of the program.

       Staff Unaware of Issues Considered and Identified as Agencywide
       Lessons Learned

As seen on the following chart, the Oversight Board evaluates a broad range of
issues from multiple sources including the following: Government Accountability
Office (GAO) reports, OIG reports, internal NRC documents, and external events.
Oversight Board members also bring to the meetings issues for consideration as
lessons learned. From these sources, the Oversight Board has identified a few
significant agencywide lessons learned and assigned corrective actions to
incorporate these lessons into agency guidance and procedures.


   Sources of Issues Reviewed by the Lessons Learned Oversight Board


                                          Special Interest Groups
                       Other Federal Agency         1%
                              Reports                   GAO Reports     International Events
                                3%                          10%                  3%



                                                                                 Licensee Reports
                                                                                       1%




                                    OIG Reports
                                       46%              NRC Internal Reports
                                                               36%




Source: OIG analysis and review of Oversight Board meeting minutes dated September 12, 2006,
through May 5, 2009.



Although the Oversight Board has considered multiple issues and identified
significant agencywide lessons learned, agency staff are generally unaware of
these activities. The Oversight Board meeting minutes document that four



                                                    4
                                      Audit of NRC’s Management Directive 6.8, Lessons Learned Program



      agencywide lessons learned have resulted from the program (see table, below).
      However, OIG interviewed 24 NRC office points-of-contact (POCs) identified by
      the Office of the Executive Director for Operations and found that 92 percent of
      the POCs had limited knowledge of the program. Moreover, none of the POCs
      could identify all the agencywide lessons learned established through the
      program and many could not identify where to find information about the
      program.


                     Lessons Learned Identified by the Oversight Board
 Oversight
                                                                      Agencywide Lessons Learned
   Board                            Source
                                                                              Identified
Meeting Date
               GAO-07-1038T, Actions Taken by NRC to                 There are weaknesses in the
 11-20-2007    Strengthen Its Licensing Process for Sealed           process NRC uses to approve
               Radioactive Sources are Not Effective.                license applications.
               Actions taken to address findings identified          NRC needs to incorporate greater
               by the Information Technology (IT)                    consistency in its processes
               Development Analysis Team, a task team                related to planning, developing,
 11-20-2007
               established to evaluate the process used for          and implementing large IT
               awarding and managing large IT system                 systems.
               development contracts.
               Report of Lessons Learned from the June               Further efforts are required to
               25, 2008, Medical Event at the Executive              clarify and expand on procedures
 11-25-2008
               Boulevard Building.                                   to be followed during medical
                                                                     emergencies.
               OIG-09-A-07, Audit of NRC’s Occupant                  NRC staff lacks awareness of
               Emergency Program.                                    emergency procedures,
                                                                     emergency equipment is
 05-05-2009                                                          inadequate and poorly
                                                                     maintained, and signage in NRC's
                                                                     White Flint complex is inadequate
                                                                     and inconsistent.

      Source: OIG analysis and review of Oversight Board meeting minutes dated September 12, 2006, through
      May 5, 2009.

      Current and former Oversight Board members were unable to name all of the
      lessons identified through the program and acknowledged that the program could
      do a better job of gathering issues from the “non-technical” offices. Although
      agencywide lessons learned identified by the Oversight Board are documented in
      meeting minutes and annual reports, most of the current and former Oversight
      Board members could only identify some of the lessons learned, and none could
      identify all four. OIG also noted that three out of the four identified agencywide
      lessons learned were “non-technical” in nature (see table above); however, the



                                                   5
                            Audit of NRC’s Management Directive 6.8, Lessons Learned Program



Oversight Board does not have any representatives from the “non-technical”
offices.

Potential lessons learned are also gathered through the agency’s Knowledge
Management (KM) program; however, there is not a direct linkage between the
KM program and the Lessons Learned Program. MD. 6.8 states that a
successful lessons learned program should be integrated with other agency
knowledge management initiatives. An NRC staff member involved with the KM
program stated that there is little interaction between the Lessons Learned
Program and the KM program. Moreover, MD 6.8 does not describe how the
Lessons Learned Program is linked to agency knowledge management efforts.

      Staff Unaware of Program Oversight

Office POCs identified by OEDO are also unaware of who has oversight of the
Lessons Learned Program. Despite statements by several Oversight Board
members that the program manager position is a key element to the success of
the program, most of the POCs and some Oversight Board members did not
know who is designated as the program manager. OIG analysis showed that
since the program’s inception in 2006, there have been five different program
managers. All program managers held the position for less than a year, including
one who held the position for only 2 months.

Further, current and former Oversight Board members and project managers
were unaware of the status of a Lessons Learned Program database, the
SharePoint Enterprise Lessons Learned (SPELL). SPELL was developed for the
Lessons Learned Program so that issues considered by the Oversight Board and
the identified agencywide lessons learned could be documented and shared with
agency staff. Specifically, Oversight Board members and program managers
were unsure as to:

             What information should be available in SPELL.

             Who has ownership of the system.

             Who should have access to the system.

OIG identified that the Office of Information Services (OIS) currently has
ownership of SPELL, which has been ready for use since November 2008.
During the development of SPELL, a former project manager used the system to
document two Oversight Board meetings in fiscal year 2009. However, the
system has not yet been implemented for agencywide use and OIS is unsure as
to who will take eventual ownership of the system. As of June 2009, SPELL has
cost the agency about $342,000.




                                         6
                              Audit of NRC’s Management Directive 6.8, Lessons Learned Program



OIS demonstrated to OIG that SPELL has the capability to track the issues
considered by the Oversight Board and the identified lessons learned and
corrective actions associated with them. It also allows staff to submit issues for
consideration as potential lessons learned.

After OIG completed this audit, NRC issued a communications plan for SPELL
on October 7, 2009. The communications plan demonstrates how NRC intends
to use SPELL as a mechanism to support the agency’s knowledge management
efforts.

The Program Has Not Been Effectively Communicated; Program Missing
Opportunities

The program could have been more effectively communicated to NRC staff, and
management’s attention to and support for certain aspects of the program has
diminished over time. As a result, the program may be missing opportunities to:

             Obtain potential lessons learned information from staff.

             Inform staff of significant agencywide lessons learned that would
              improve NRC operations.

Without proper knowledge of the identified agencywide lessons learned by the
NRC staff associated with the Lessons Learned Program, MD 6.8 cannot achieve
its purpose of disseminating agencywide lessons learned. Consequently, NRC
runs the risk of repeating problems that have already been identified. By
enhancing communication to the staff, the program can achieve its intended
purpose to ensure that knowledge gained from significant lessons learned is
retained and disseminated in a manner that will maximize its benefit and
usefulness to the staff.


RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

       1. Develop and implement a strategy for communicating agencywide
          lessons learned and program activities to agency staff.

       2. Implement the plan to release SPELL for agency staff use.

       3. Re-affirm and communicate management’s support for the program.




                                           7
                             Audit of NRC’s Management Directive 6.8, Lessons Learned Program



AGENCY COMMENTS

OIG held an exit meeting with NRC management on September 25, 2009. After
the meeting, agency management provided informal comments to the draft
report. On October 8, 2009, OIG held an additional meeting with NRC
management to discuss the agency’s informal comments to the draft report.
After that meeting, OIG provided NRC with a revised draft report and agency
management generally agreed with the report’s finding and recommendations.
The agency decided not to provide formal comments. This report incorporates
revisions made, where applicable, as a result of meetings with NRC staff.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this report. Actions taken or
planned are subject to OIG followup as stated in MD 6.1.

SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG audit team reviewed NRC lessons
learned task force reports, MD 6.8, Oversight Board meeting minutes,
documentation regarding SPELL, and other program related documentation. The
audit team interviewed agency staff, including past and current program
managers and Oversight Board members and agency POCs.

OIG conducted this audit between June 2009 and August 2009 in accordance
with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on
our audit objective. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit objective.

Major contributors to this report were Sherri Miotla, Team Leader; Eric Rivera,
Audit Manager; Catherine Colleli, Audit Manager; Timothy Wilson, Senior
Analyst; and Vidya Sathyamoorthy, Student Management Analyst.

cc:   N. Mamish, OEDO
      J. Andersen, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO




                                          8
